         OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Audit Report

       Improved Management Practices
       Needed to Increase Use of
       Exchange Network
       Report No. 2007-P-00030

       August 20, 2007
Report Contributors:               Rudolph M. Brevard 

                                   Cheryl Reid
                                   Jefferson Gilkeson
                                   Scott Sammons




Abbreviations

AFS                Air Facility System
AQS                Air Quality System
CDX                Central Data Exchange
ENLC               Exchange Network Leadership Council
EPA                U.S. Environmental Protection Agency
IT                 Information Technology
NOB                Network Operations Board
OIG                Office of Inspector General
OMB                Office of Management and Budget
PCS                Permit Compliance System
RCRA               Resource Conservation and Recovery Act
RCRAInfo           Resource Conservation and Recovery Act Information System
SDWIS              Safe Drinking Water Information System




Cover photos:	 Clockwise from top: Conceptual representation of the Exchange Network using
               photos from:

                   �   Kentucky Department for Environmental Protection
                   �   New Jersey Department of Environmental Protection
                   �   EPA National Computer Center, Research Triangle Park, North Carolina
                   �   North Carolina Department of Environment and Natural Resources
                   �   South Carolina Department of Health and Environmental Control
                   �   New Mexico Environment Department’s Mobile Air Monitoring Trailer
                   �   New Mexico Environment Department
                   �   Tennessee Department of Environment and Conservation

                 (Photos courtesy of EPA and the States featured)
                       U.S. Environmental Protection Agency                                             2007-P-00030

                       Office of Inspector General                                                     August 20, 2007




                       At a Glance
                                                                         Catalyst for Improving the Environment

Why We Did This Review              Improved Management Practices Needed
We sought to determine:             to Increase Use of Exchange Network
� What barriers exist that
  prevent the National               What We Found
  Environmental Information
  Exchange Network                  Although EPA established a partnership with the Exchange Network’s
  (Network) from achieving          governance bodies to assist them with accomplishing Network initiatives, more
  maximum usage, and steps          improvements are needed to ensure Network partners fully utilize the Network.
  the U.S. Environmental            These partners include EPA, States, tribes, territories, and other parties with
  Protection Agency (EPA)           whom EPA and States exchange information. EPA should improve its methods
  can take to overcome them.        for selecting and prioritizing which data flows to implement. EPA also needs to
� Whether EPA has developed         take further steps to complete measurements of Network initiatives to ensure
  Network performance               investments are delivering expected results. In addition, EPA needs to improve its
  measures that align with its      internal system development practices to ensure EPA offices perform cost benefit
  Strategic Plan.                   analyses for new or upgraded environmental systems. Further, EPA should
� How EPA could improve             strengthen its policies to define when offices should utilize the Network for
  key system development            receiving environmental information.
  processes for analyzing costs
  and ensuring Network use for      The Exchange Network Business Plan stresses the importance of having an
  new systems and upgrades.         effective collaborative partnership between EPA, the Network governance bodies,
� How EPA could assist the          and the Network partners. Since EPA intends for the Exchange Network to
  Network governance bodies         become the preferred method for exchanging environmental data and foresees
  in accomplishing their            expanding the Network, EPA should take steps to improve Network use. Without
  missions.                         taking action, EPA would not know when or whether its partners would adopt the
                                    Network as the preferred method to share data with EPA. As such, EPA
Background                          investments in the Network would not yield the desired outcomes.

The Exchange Network is             What We Recommend
EPA’s approach (and expected
preferred method) for the           We made various recommendations, including that the EPA Office of
exchange of environmental data      Environmental Information:
among Network partners. As
of January 2007, 48 States and      �	 Execute the Exchange Network Marketing and Communications plan and
2 tribes used the Network.             evaluate data flows for Network implementation,
EPA has invested more than          �	 Develop a new plan for completing the Exchange Network performance
$162 million on the Network.           measures project,
                                    �	 Develop policies and procedures to guide program offices to use the Network
For further information, contact       and conduct Exchange Network Cost Benefit Analysis, and
our Office of Congressional and     �	 Include the Exchange Network in the Enterprise Architecture.
Public Liaison at (202) 566-2391.

 To view the full report,           In general, the Agency agreed with the report's findings and recommendations.
 click on the following link:       We have summarized the Agency's comments in the following report chapters and
www.epa.gov/oig/reports/2007/       included the Agency's complete response in Appendix C.
20070820-2007-P-00030.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                         August 20, 2007
MEMORANDUM

SUBJECT:	              Improved Management Practices Needed to Increase Use of
                       Exchange Network
                       Report No. 2007-P-00030


FROM:                  for Patricia H. Hill

                       Assistant Inspector General for Mission Systems

TO:                    Linda A. Travers
                       Deputy Assistant Administrator for Environmental Information

This is our report on the subject audit conducted by the Office of Inspector
General (OIG) of the U.S. Environmental Protection Agency (EPA). It contains
findings that describe the problems the OIG has identified and corrective actions the OIG
recommends. This report represents the opinion of the OIG and does not necessarily represent
the final EPA position. Final determinations on matters in this report will be made by EPA
managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $665,051.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Rudolph Brevard, Director for
Information Resources Management Assessments, at (202) 566-0893 or
brevard.rudolph@epa.gov.
                          Improved Management Practices Needed to Increase 

                                     Use of Exchange Network




                                Table of Contents 


Chapters
 1	   Introduction ...........................................................................................................     1


              Purpose .........................................................................................................    1         

              Background ....................................................................................................      1         

              Noteworthy Achievements..............................................................................                3         

              Scope and Methodology.................................................................................               3


 2	   EPA Needs to Implement Exchange Network Business Plan Elements ..........                                                    5


              EPA Needs to Market the Network’s Business Value to the States ...............                                       5

              EPA Needs to Modify the Network’s Change Management Process .............                                            6

              Recommendations .........................................................................................            7         

              Agency Comments and OIG Evaluation..........................................................                         7


 3	   EPA Needs to Use a Formal Process to Select and Prioritize Data Flows ......                                                 8


              EPA Needs to Invest in the Most Beneficial Network Initiatives .....................                                 8

              Recommendation ...........................................................................................          10             

              Agency Comments and OIG Evaluation..........................................................                        10 


 4	   EPA Needs to Measure Progress Meeting Exchange Network 

      Performance Objectives .......................................................................................              11     


              Performance Measures Workgroup Needs More Structure ...........................                                     11 

              Recommendations .........................................................................................           12             

              Agency Comments and OIG Evaluation..........................................................                        12 


 5	   EPA Needs to Improve Exchange Network System 

      Development Processes… ...................................................................................                  13     


              Program Offices Need to Perform Cost Benefit Analysis ...............................                               13 

              EPA Needs a Policy Defining When to Use the Network ...............................                                 14 

              Recommendations .........................................................................................           15             

              Agency Comments and OIG Evaluation.........................................................                         15 


 Status of Recommendations and Potential Monetary Benefits.................................                                       16 





                                                         - continued -
                          Improved Management Practices Needed to Increase 

                                     Use of Exchange Network





Appendices
 A   Detailed Scope and Methodology........................................................................                      17     


 B   Federal and Agency Criteria.................................................................................                21     


 C   Agency Response to Draft Report.......................................................................                      23 


 D   Distribution ............................................................................................................   28 

                                Chapter 1
                                Introduction

Purpose
          We evaluated the U.S. Environmental Protection Agency’s (EPA’s)
          implementation of electronic data collection initiatives. We did this by reviewing
          a sample of EPA data collection projects (called data flows) related to the
          National Environmental Information Exchange Network (Exchange Network, or
          Network). Specifically, we sought to determine:

          �	 What internal EPA or external stakeholder barriers exist that prevent selected
             Exchange Network projects from achieving maximum usage by Network
             partners and steps EPA can take to overcome identified barriers.
          �	 Whether EPA has developed performance measures that align with Exchange
             Network objectives stated in the Agency’s Strategic Plan.

          We also assessed how EPA could improve processes for:

          �	 Performing cost benefit analysis of Exchange Network projects, and
             establishing policies and procedures to ensure program offices design systems,
             when applicable, to use the Exchange Network when developing new or
             upgrading existing systems.
          �	 Assisting the two Exchange Network governance bodies – the Exchange
             Network Leadership Council (ENLC) and its operational sub-group, the
             Network Operations Board (NOB) – in accomplishing their missions.

Background
          The Exchange Network is a secure Internet- and standards-based approach for
          exchanging environmental data and improving environmental decisions. EPA,
          State environmental departments, U.S. tribes, and territories have acted as
          partners in building the Network. By using interconnected computers (called
          Network nodes), the Network provides access to, and exchange of, environmental
          data. As shown in Figure 1-1, partners use their Network nodes and standardized
          data templates to exchange data over the Internet with other Network partners.
          This node-to-node exchange of data is intended to increase efficiency through
          automation and reduce reporting burden. Over time, EPA expects the Network to
          become the preferred method used by Network partners to exchange
          environmental data with EPA and other Network partners.




                                           1

   Figure 1-1: Exchange Network Overview





   S
   o
   u
   r
   c
   e
   :

   w
   w
   w
   Source: www.exchangenetwork.net

The governance of the Network is a partnership between EPA and the various
Network partners. Each of the governance bodies – ENLC and NOB – include EPA,
State, and tribal representatives. The ENLC provides leadership to the Exchange
Network and is responsible for the Network’s overall policies and strategic direction.
The NOB oversees day-to-day operation of the Network’s shared infrastructure and
identifies, prioritizes, and resolves Network operational issues. The ENLC and NOB
have the authority to establish workgroups as needed to organize and execute their
responsibilities. The Environmental Council of the States plays a strong coordinating
role for participating State executives.

EPA’s Office of Environmental Information manages the Central Data Exchange
(CDX). This exchange represents EPA’s node on the Exchange Network and is the
portal used by Network partners to share environmental data with EPA. EPA
program offices are responsible for ensuring, when applicable, that their information
systems are able to accept data sent by Network partners via the Network. This may
require Program Offices to incorporate additional technologies in order to receive
data sent by Network Partners over the Exchange Network.

Tables 1-1 and 1-2 provide key Exchange Network statistics as of January 2007.

Table 1-1: Exchange Network Funding Data
    $163.4 million        The total amount of funding EPA provided internally and to States,
                          tribes, and territories for developing the Exchange Network.

    $101.9 million        The amount of grants awarded to States, tribes, and territories to
                          fund Exchange Network initiatives.

    $61.5 million         The amount of funding EPA provided internally to develop and
                          maintain the CDX.

 Source: OIG compilation and analysis of information from EPA and www.exchangenetwork.net




                                         2
         Table 1-2: Exchange Network Usage Data 

                  15           The number of Exchange Network data flows EPA has available for
                               Network partner use; includes 7 regulatory data flows.
              48 States        The number of Exchange Network partners using the Network to share
               2 Tribes        environmental information with EPA and other Network partners.

              37 States        The number of States using the Network to share regulatory data
                               with EPA.

          Source: OIG compilation and analysis of information from www.exchangenetwork.net


Noteworthy Achievements
         All six State environmental agencies we visited cited EPA grant funding as the
         primary reason enabling their use of the Exchange Network. States also cited the
         promotion of data standards and enablement of State-to-State exchanges as actual
         or expected benefits from Network participation.

         In addition to the seven available regulatory data flows, EPA implemented non-
         regulatory data flows (e.g., Water Quality Exchange) and Agency outbound data
         flows to States (e.g., Toxic Release Inventory). EPA representatives indicated the
         Toxic Release Inventory data flow would help (1) reduce States’ data collection
         time and effort, (2) improve data quality, and (3) ensure the consistency of EPA
         and State database records.

Scope and Methodology
         We conducted this audit in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. We conducted this audit
         from January through December 2006 at EPA Headquarters in Washington, DC;
         Research Triangle Park, North Carolina; and six State environmental agencies.

         We reviewed Exchange Network background information, as well as relevant
         Federal and Agency policies and procedures related to managing Information
         Technology (IT) investments. We interviewed EPA and State employees
         responsible for overseeing and implementing Exchange Network projects. We
         also interviewed State employees who work in or manage State air, water, or land
         programs.

         Appendix A includes information on management controls, report limitations, and
         our selections of Exchange Network projects and States visited. Appendix A also
         provides the specific scope and methodology applied for each audit objective.
         Appendix B contains a list of relevant Federal and Agency policies and
         procedures as well as other criteria documents we reviewed.

         There were no pertinent issues that required followup from prior audit reports.



                                              3

We conducted a limited review of the two Exchange Network governance bodies
in five key strategic areas. We analyzed the results of a questionnaire sent to each
body, conducted interviews with representatives from each body, and reviewed
each of the body’s charter. Our analysis did not discover areas where EPA could
further assist the governance bodies in the areas under review. Therefore, we did
not pursue this area during field work.




                                 4

                             Chapter 2
     EPA Needs to Implement Exchange Network
             Business Plan Elements

          EPA should take additional steps, as per its Exchange Network Business Plan,
          to assist Network partners in using the Network. We found that:

          �	 Partners did not fully understand the benefits of using the Network.
          �	 Partners viewed the Network as an IT project instead of a new way to
             manage environmental information.
          �	 Partners incurred added costs and lost time because EPA did not always
             communicate Network changes or fully test Network implementation
             tools.

          This occurred because EPA had not implemented a plan to communicate the
          business value of using the Network. EPA also had not put in place processes
          to communicate changes in data requirements or fully test Network
          implementation tools. The Exchange Network Business Plan stresses the
          importance of communication with Network stakeholders. These key
          communication processes help Network partners initiate, expand, and sustain
          Network usage. Due to the issues noted, EPA does not know when or
          whether its partners would adopt the Network as the preferred method to share
          regulatory data with EPA.

EPA Needs to Market the Network’s Business Value to the States
          EPA officials indicated they provided technology transfer assistance for the
          Network through its technology team and contractors. This included
          conferences, and face-to-face seminars, and one-to-one assistance to promote
          and explain Exchange Network technology to State IT staff and their
          contractors. EPA also promoted the benefits of the Network at national
          meetings with State environmental commissioners and at EPA program office
          conferences. However, State air, water, and land program managers we
          interviewed did not fully understand the Network, its technologies, or
          anticipated benefits.

          During our visits to six State environmental offices, we interviewed State
          employees who work in or manage their State’s air, water, or land programs.
          We also interviewed State IT employees responsible for implementing
          Network data flows. We asked both groups to provide examples of benefits
          from Network participation.



                                        5

         The IT employees described benefits such as improved data quality and
         increased automation. However, State program office employees often could
         not cite specific programmatic benefits provided by the Network. They also
         stated that they did not know how the Network could be used in their
         program, nor what programmatic benefits it could provide. Further,
         employees from all six State environmental agencies said EPA needed to do a
         better job marketing the business value of Network participation.

         The Exchange Network Business Plan addresses the need to market ways that
         the Network adds value, and links partner activities with Network goals and
         objectives. Often the impetus to implement a Network data flow occurred
         when a State IT employee initiated an Exchange Network grant. Therefore,
         the decision to participate in the Network was driven by the IT department
         instead of the State program office. Because of this and also because EPA
         promoted technical benefits, such as improved data quality and data
         availability, two State program office employees and the ENLC indicated that
         the Network is viewed as an IT project rather than an information
         management initiative. As a result, State program office employees have not
         fully utilized the Network. It is also unknown whether or when States will
         adopt the Network as the preferred method for inter-governmental transfer of
         environmental data.

         Subsequent to audit field work, in December 2006 EPA published the
         Exchange Network Communications and Marketing Plan. This document
         addresses the need to communicate the specific benefits of Network
         participation, in non-technical terms, to State environmental program
         officials. This document also provides the context, framework, and guidance
         for the implementation of all Exchange Network communications, initiatives,
         and activities. The ENLC recently acknowledged that the Network is seen by
         senior managers as a technology project instead of as an information
         management initiative. An ENLC official indicated that the ENLC is
         conducting outreach to States to understand their business needs and to foster
         relevant growth and application of the Network.

EPA Needs to Modify the Network’s Change Management Process
         Representatives from two State agencies said they incurred added costs and
         lost time because EPA did not always communicate Network changes or fully
         test Network implementation tools. Employees from all six State agencies
         visited cited instances when they had attempted, but were unable, to use the
         Network to send data to EPA. They indicated this occurred because EPA did
         not communicate changes made to data requirements or error checking
         routines. State agency employees also cited instances when Network tools
         (developed to accelerate data flow implementation) did not work. These
         conditions impeded States’ efforts to sustain and expand Network usage.




                                        6

         These conditions occurred because EPA did not implement, in a timely
         manner, a change management process for the Network. In addition, EPA
         lacked a formal process to communicate changes to Network partners, or to
         fully test implementation tools. The Exchange Network Business Plan
         identifies the need to develop a formal change management process for
         communicating and controlling changes that can adversely affect partners’
         ability to use the Network. This change management process is important to
         the successful and sustained usage of the Exchange Network. Because these
         processes were not in place, States incurred rework costs and experienced
         delays in using the Network to share data with EPA.

         Subsequent to audit field work, EPA adopted and published formal change
         management policies and procedures for the Exchange Network. These
         documents define the Network change management practices and include
         processes for communicating changes that affect partner implementation
         efforts. However, these policies and procedures do not include detailed step-
         by-step processes for testing and certifying Exchange Network
         implementation tools.

Recommendations
         We recommend that the Deputy Assistant Administrator for Environmental
         Information have the Director, Office of Information Collection:

         2-1 	 Execute recently developed Exchange Network Communications and
               Marketing plan elements that include actively promoting the business
               value of participating in Network initiatives to EPA and partner
               environmental program managers.

         2-2 	 Modify Exchange Network change management policies and procedures
               to include step-by-step processes for fully testing and certifying all
               implementation tools before release to the Exchange Network
               community.

Agency Comments and OIG Evaluation
         The Agency agreed with the findings and recommendations. Management
         indicated it would ensure it provides recommendations to promote the
         business value of participating in Network initiatives to the ENLC and
         indicated that the Network Technical Group, a subgroup of the Network
         Operations Board, would develop procedures for testing and certifying all
         implementation tools.




                                        7

                              Chapter 3
        EPA Needs to Use a Formal Process to
           Select and Prioritize Data Flows

          EPA did not always implement data flows most beneficial to Network
          partners. The Network Business Plan provides criteria for evaluating
          Network data flows. These criteria favor using flows with stable data
          requirements, and those most likely to be implemented by Network partners.
          However, EPA did not follow these criteria and instead decided to first
          implement all regulatory data flows. EPA officials said this approach would
          result in the greatest reduction in States' reporting burden to EPA. However,
          States already had a way to provide regulatory data to EPA. Therefore, some
          regulatory data flows were implemented that have little State usage. Using a
          formal process to guide Exchange Network investment decisions increases the
          likelihood that public funds are effectively spent. Soliciting Network partner
          input increases Network usage by investing in those initiatives most needed
          by Network partners. By not doing this, EPA may direct public funds to
          Network initiatives that may not be most beneficial to partners or that do not
          maximize Network usage.

EPA Needs to Invest in the Most Beneficial Network Initiatives

          EPA did not timely solicit State program offices’ input or follow Network
          Business Plan guidance to select and prioritize investments in Network data
          flows. State employees cited, as an area for improvement, that EPA should
          solicit their input to understand how the Network can address their needs.

          We found that five of the six States we visited wanted to implement a data
          flow but it was not available. For example, two States we visited had a keen
          interest in electronically providing water permit data to the Permit
          Compliance System (PCS), one of the systems in our sample. However, a
          PCS network data flow will not be available until 2008.

          Also, three of the available Network data flows in our sample had little State
          participation. For example, for the Resource Conservation and Recovery Act
          Information System (RCRAInfo) data flow, only four States regularly use the
          Exchange Network to send Resource Conservation and Recovery Act
          (RCRA) data to EPA. As reasons, State employees cited a lack of identifiable
          benefits and the difficulty implementing this data flow. Further, the one State
          visited that uses the Network to provide RCRA data to EPA reported no
          benefits. In addition, EPA RCRA program officials had not documented any
          benefits to substantiate modernizing the RCRAInfo system to accept data
          through the Network.

                                         8

EPA did not follow Network Business Plan guidance to select and prioritize
investments in Network data flows. The Network Business Plan, endorsed by
EPA senior management officials, contains specific criteria for determining
which data flows are most suitable for Network use. These criteria include
determining whether the Network will provide specific benefits by:

�	 Making the data exchange more efficient by reducing or eliminating
   manual intervention, such as scheduling, resubmissions or security.
�	 Providing higher data quality due to more efficient error checking and/or
   earlier detection of errors/discrepancies.

The criteria also state that certain data flows are more appropriate for the
Network than others. Important considerations include the extent to which
data flows are likely to capture the Network effect by engaging multiple
partners, as well as the volatility of data and frequency of exchange.

Agency officials and representatives said implementing regulatory flows
would produce the greatest reduction in States’ reporting burden.
Accordingly, EPA invested resources to implement these data flows on the
Exchange Network. Additionally,
                                                 Figure 3-1: State Participation in
the Network Business Plan 	
                                                 Regulatory Data Flows
provides, for planning purposes, a
scenario in which, by the year
2010, a majority of States will use
the Network to meet most of their                          9
                                                                         three or
regulatory reporting requirements.                                       m ore
As shown in Figure 3-1, 37 of 50                 13
                                                                         one to tw o
States use the Network to share
regulatory data with EPA.
                                                       28                none
However, only 9 of 50 States
implemented 3 or more regulatory
                                                 Source: OIG analysis of Exchange
data flows and no State uses all 7               Network usage data from
of the available regulatory data                 www.exchangenetwork.net
flows. As such, only a small
number of States use the majority
of available regulatory data flows.

The lower-than-projected usage of regulatory data flows partly stems from
States already having an acceptable way to meet their regulatory reporting
requirements. EPA had not always considered this when deciding to
implement the regulatory data flows. As such, EPA implemented regulatory
data flows although the data flows did not meet the investment selection
criteria. By not using their own approved process to select and prioritize
investments in Network initiatives, EPA directed public resources to some
Network initiatives that may have produced few, if any, benefits. Given that
EPA continues to expand the use of the Network beyond receiving regulatory

                                9

         data, EPA should apply the Network Business Plan criteria when deciding
         which future Network projects to fund. This should result in the better use of
         public funds and increased partner usage of the Network.

Recommendation
         We recommend that the Deputy Assistant Administrator for Environmental
         Information:

         3-1 	 Work with Exchange Network governance bodies to develop and
               implement a process that uses Network Business Plan criteria to
               evaluate data flows for future Network implementation.

Agency Comments and OIG Evaluation
         The Agency agreed with the finding and recommendation. Management
         indicated it would develop a process jointly with the Exchange Network’s
         governance bodies.




                                       10

                             Chapter 4
      EPA Needs to Measure Progress Meeting
     Exchange Network Performance Objectives

         Although EPA defined performance measures related to achieving Exchange
         Network objectives in EPA’s strategic plan, it has not measured progress
         made. These objectives define how the Network would provide wider
         information sharing and contribute to better decision-making. These
         objectives also define how the Network reduces the burden on those that
         provide and access information. EPA shares responsibilities for developing
         and reporting the results of Network performance measures with a workgroup
         comprised of EPA and Network partners. However, this workgroup lacks a
         charter and defined roles and duties for members. This lack of structure led to
         the Agency missing milestones in its plan for the Network’s performance
         measures project. Without collecting performance data on key tasks and
         milestones, EPA does not know whether Network investments achieve their
         stated objectives or are implemented within cost and schedule estimates.

Performance Measures Workgroup Needs More Structure
         Although EPA developed a comprehensive work plan for the Exchange
         Network performance measures project, key tasks remain to be completed and
         milestone dates have been missed. The performance measures workgroup has
         established metrics and Agency representatives stated they developed
         measurement survey instruments to measure progress. However, as of
         January 31, 2007, the workgroup had not collected data to measure progress
         made in attaining key Network objectives.

         The Work Area Task Plan: Performance Measurements - Exchange Network
         outlines development of outcome-oriented performance measures for the
         Exchange Network. This plan outlines the collection, analysis, and
         interpretation of baseline indicator data to measure performance over time.
         These measures, along with EPA’s performance measurement efforts, focus
         on showing progress made toward meeting the goals and objectives in EPA’s
         2003-2008 strategic plan.

         EPA representatives indicated they initially established the performance
         measures workgroup to complete the work outlined in the task plan. EPA
         representatives indicated they later expanded the workgroup to include
         Network partners because EPA believed it needed external input to measure
         certain parts of the plan. EPA now shares the oversight of the workgroup
         with the Network governance bodies. However, neither EPA nor the Network


                                       11

         governing bodies have processes in place for setting up and overseeing ad-hoc
         workgroups working on Network projects. This led to establishing the
         performance measures workgroup without a charter and defined roles and
         responsibilities.

         Without performance measures, management is seriously hindered in its
         efforts to improve program efficiency and effectiveness. The Agency cannot
         ensure (1) the Exchange Network investment supports the Agency's Strategic
         Plan, (2) the investments progress in accordance with planned performance
         baselines, and (3) projects are modified and adjusted accordingly.

         Subsequent to the draft report, EPA indicated it took action to correct this
         finding. It disbanded the metrics workgroup and moved the responsibilities
         under the Network Partnership and Resources Group. We re-evaluated the
         group’s charter and agree with the Agency that it includes Exchange Network
         performance measures oversight responsibilities.

Recommendations
         We recommend that the Deputy Assistant Administrator for Environmental
         Information have the Director, Office of Information Collection:

         4-1 	 Develop a new milestone plan for completing the Exchange Network
               performance measures project.

         We also recommend that the Deputy Assistant Administrator for
         Environmental Information work with the Exchange Network governance
         bodies to:

         4-2 	 Develop procedures for establishing ad-hoc workgroups for Exchange
               Network projects.

Agency Comments and OIG Evaluation
         The Agency agreed with the findings and recommendations and provided the
         OIG with corrective actions to address the problems related to the Exchange
         Network performance measure responsibilities. The Agency indicated the
         performance measures project is now on a schedule under the control of the
         Network Partnership and Resources Group, and indicated it will develop
         procedures for new ad-hoc workgroups. We modified the report and our final
         recommendations accordingly.




                                       12

                               Chapter 5
 EPA Needs to Improve Exchange Network System
            Development Processes

          EPA should strengthen system development processes related to Exchange
          Network initiatives. EPA’s Capital Planning and Investment Control policy
          and the Exchange Network Business Plan provide the framework for
          planning, putting in place, or continuing an e-business Information
          Technology investment. However, we found that:

          �	 EPA program offices in our sample had not performed a cost benefit
             analysis on Exchange Network technologies before investing in Network
             projects.
          �	 EPA had not published policies to guide offices to use the Network when
             developing or upgrading systems.

          These issues exist because EPA’s cost benefit analysis process does not
          contain steps to ensure full consideration of Network technologies. In
          addition, EPA’s Enterprise Architecture does not formally recognize the
          Exchange Network. As such, these weaknesses can lead to investment costs
          outweighing benefits or investments not aligning with EPA’s IT plans.

Program Offices Need to Perform Cost Benefit Analysis
          EPA invested in Exchange Network technologies without determining if
          benefits realized would exceed costs incurred. EPA’s Capital Planning and
          Investment Control Procedures for the Office of Management and Budget
          (OMB) Exhibit 300 (CPIC procedures) requires the development of a cost
          benefit analysis prior to initiating, continuing, or implementing an IT
          investment. The procedure states that the analysis must contain three
          technical alternatives, with one alternative being “as is.” It also states that
          each viable technical approach should be included as an alternative. A cost
          benefit analysis is required, regardless of cost, if the IT investment uses
          e-business technologies.

          Program offices did not conduct a cost benefit analysis to consider Network
          technologies because Agency CPIC procedures lack specific guidance on
          evaluating data transfer protocols and Web services. Program office
          representatives said they included Exchange Network technologies in
          modernization efforts because the Agency was moving in that direction.
          Therefore, the offices did not evaluate whether other system development
          alternatives were more cost effective. Program office representatives also
          said they did not include Network analysis because it was a small part of their


                                         13

          overall modifications. The Office of Environmental Information indicated it
          is planning to develop a Return on Investment tool that will allow program
          offices to determine the value of using EPA Exchange Network core services.
          However, it has yet to take steps to develop the tool.

          A properly developed cost benefit analysis establishes a baseline used to
          measure future progress. This baseline is a key tool for estimating benefits
          and costs. The post implementation review needs this baseline to validate
          benefits and costs, as well as to document effective management practices.
          Without a properly developed cost benefit analysis, the review might not have
          the information necessary to determine if investments are performing as
          intended. This may lead to projects having costs that exceed benefits or not
          meeting the needs for which the projects were initiated.

          During field work, EPA produced a CDX return on investment report on six
          data flows, and indicated it shared the results with representatives in four
          program offices. However, EPA needs to complete its plans to develop a tool
          offices can use to evaluate their applications in regard to Network
          technologies.

EPA Needs a Policy Defining When to Use the Network
          Although EPA intends for the Network to become the preferred method for
          exchanging environmental data, EPA does not have a policy to guide program
          offices to use Exchange Network technologies, when applicable, during
          system development and modernization. EPA has not finished developing
          guidance to guide program offices to implement Network technologies in their
          systems. Also, EPA does not formally recognize the Exchange Network in
          the Agency’s Enterprise Architecture, which requires program offices to
          adhere to the current Agency IT plans.

          By completing these two critical processes, EPA could ensure maximum
          consideration and use of the Network. This would also reinforce procedures
          to guide program offices on the use of the Exchange Network. Not guiding
          program offices on the use of the Exchange Network may lead to realizing
          less than maximum business value of Network investments. This may also
          create redundancy resulting from disparate planning and development efforts.

          As indicated earlier, CDX is EPA’s node on the Exchange Network and CDX
          is incorporated in the Agency’s Enterprise Architecture. EPA officials stated
          they recognize the Exchange Network in the Enterprise Architecture through
          the use of CDX. However, some EPA program offices are using the CDX for
          data exchanges without using Exchange Network technologies. Therefore, if
          EPA wants to ensure full consideration of the Exchange Network as the
          preferred method for exchanging environmental data, EPA should formally
          recognize the Exchange Network in the Enterprise Architecture and complete
          guidance that helps ensure offices implement the Network technologies in

                                        14

         their systems. This would help EPA ensure offices consider the Exchange
         Network and other various data sharing alternatives when replacing or
         upgrading their systems.

Recommendations
         We recommend that the Deputy Assistant Administrator for Environmental
         Information have the Director, Office of Technology Operations and
         Planning:

         5-1 	 Publish standards that specify when EPA program offices must use the
               Exchange Network when modernizing or developing applications. The
               standards should also specify the processes EPA offices must follow
               when the office cannot adhere to the established standards or select an
               alternate technological solution to the one prescribed.

         5-2	 Include the Exchange Network and related technologies as part of the
              Agency’s Enterprise Architecture.

         We also recommend that the Deputy Assistant Administrator for
         Environmental Information have the Director, Office of Information
         Collection:

         5-3 Complete its plans to develop a tool offices can use to evaluate their
             applications in regard to Network technologies.

Agency Comments and OIG Evaluation
         In general, the Agency agreed with the findings and plans to take steps to
         address the recommendations. Management did not concur with our original
         recommendation 5-1 that recommended the Agency include Exchange
         Network Cost Benefit Analysis procedures in the Capital Planning and
         Investment Control process. Management did not believe that the Agency’s
         Capital Planning and Investment Control process is the appropriate place to
         include details for Exchange Network technologies as part of the cost benefit
         analysis, because not all information systems will be using the Exchange
         Network. However, our review disclosed EPA offices did not evaluate the
         cost and benefits for using the Exchange Network, although these offices
         invested in the technology. As such, EPA should develop guidance to ensure
         that all relevant costs are identified and considered when investing in the
         Exchange Network. Subsequent to the Agency's response to the draft report,
         Agency officials acknowledged the need to establish standards within the
         Agency's policy framework that outline when the Exchange Network should
         be used, and concurred with our recommendation that the Agency take steps
         to establish them. Where appropriate, we modified the report and the final
         recommendations.


                                       15

                              Status of Recommendations and

                                Potential Monetary Benefits 

                                                                                                                                    POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                        Planned                 Agreed
Rec. Page                                                                                                              Completion    Claimed      To
No. No.                                   Subject                                Status1        Action Official           Date       Amount     Amount

    2-1   7    Have the Director, Office of Information Collection, execute           O        Deputy Assistant
               recently developed Exchange Network Communications and                           Administrator for
               Marketing plan elements that include actively promoting the                 Environmental Information
               business value of participating in Network initiatives to EPA
               and partner environmental program managers.

    2-2   7    Have the Director, Office of Information Collection, modify            O        Deputy Assistant
               Exchange Network change management policies and                                  Administrator for
               procedures to include step-by-step processes for fully testing              Environmental Information
               and certifying all implementation tools before release to the
               Exchange Network community.

    3-1   10   Work with Exchange Network governance bodies to develop                O        Deputy Assistant
               and implement a process that uses Network Business Plan                          Administrator for
               criteria to evaluate data flows for future Network                          Environmental Information
               implementation.

    4-1   12   Have the Director, Office of Information Collection, develop a         C        Deputy Assistant         06/27/07
               new milestone plan for completing the Exchange Network                           Administrator for
               performance measures project.                                               Environmental Information

    4-2   12   Work with the Exchange Network governance bodies to                    O        Deputy Assistant
               develop procedures for establishing ad-hoc workgroups for                        Administrator for
               Exchange Network projects.                                                  Environmental Information

    5-1   15   Have the Director, Office of Technology Operations and                 O        Deputy Assistant
               Planning, publish standards that specify when EPA program                        Administrator for
               offices must use the Exchange Network when modernizing or                   Environmental Information
               developing applications. The standards should also specify
               the processes EPA offices must follow when the office cannot
               adhere to the established standards or select an alternate
               technological solution to the one prescribed.

    5-2   15   Have the Director, Office of Technology Operations and                 O        Deputy Assistant
               Planning, include the Exchange Network and related                               Administrator for
               technologies as part of the Agency’s Enterprise Architecture.               Environmental Information

    5-3   15   Have the Director, Office of Information Collection, complete          O        Deputy Assistant
               its plans to develop a tool offices can use to evaluate their                    Administrator for
               applications in regard to Network technologies.                             Environmental Information




1    O = recommendation is open with agreed-to corrective actions pending; 

     C = recommendation is closed with all agreed-to actions completed; 

     U = recommendation is undecided with resolution efforts in progress 





                                                                                16

                                                                                 Appendix A

                      Detailed Scope and Methodology 

Management Controls and Report Limitations

We evaluated the following two management controls related to the effectiveness and
efficiency of program operations:

�	 EPA’s controls over the effectiveness and efficiency of Electronic Initiatives and their
   interactions with the governing bodies.
�	 The management control structure of the governing bodies to determine if procedures
   have been implemented to meet their objectives and included appropriate stakeholders.

We did not review the provisions of Network contract or grant agreements and safeguarding
of resources. Therefore, the user of this report would not be able to determine whether
(1) funds awarded for Exchange Network initiatives were spent according to contract or
grant provisions, or (2) EPA management took adequate steps to safeguard Agency-
controlled resources.

Selection of Exchange Network Data Flows

We surveyed EPA program offices and regions to identify all Exchange Network projects.
We selected only those Exchange Network projects that: (1) represent one of the nine
regulatory Network data flows, and (2) use the Exchange Network to flow data from
Network partners to EPA. This resulted in an initial sample of eight Exchange Network
projects in four EPA program offices. We later reduced our sample size (due to time and
resource constraints) to five Exchange Network projects within the four program offices.
Table A-1 provides a listing of selected Exchange Network data flows and EPA program
offices, and indicates whether the data flow was available for implementation by Network
partners.

Table A-1: Selected Exchange Network Data Flows

                                                                                Available for
 Exchange Network Data Flow            Acronym          Program Office         Implementation
Air Quality System                    AQS        Office of Air and Radiation         X
Air Facility System                   AFS        Office of Enforcement and
                                                 Compliance Assurance
Permit Compliance System              PCS        Office of Enforcement and
                                                 Compliance Assurance
Resource Conservation and             RCRAInfo   Office of Solid Waste and           X
Recovery Act Information System                  Emergency Response
Safe Drinking Water Information       SDWIS      Office of Water                     X
System
Source: OIG compilation of EPA data


                                                 17
Selection of States for Site Visits

We used information on the Exchange Network Web site (www.exchangenetwork.net) to
select States for our site visits. We categorized States into two groups: (1) States that had not
yet implemented an Exchange Network node, and (2) States that had done so. Next, we
assigned those States with active Network nodes into sub-groups based on their level of
participation (high, occasional, low, or no) in available data flows. We defined the various
levels as such:

       High Exchange Network Participation: States that use the Network to provide data
       to EPA using two or more of the available regulatory data flows, at least one of which
       is from Table A-1.

       Occasional Exchange Network Participation: States that have used the Network to
       provide data to EPA using one or more of the available regulatory data flows, at least
       one of which is from Table A-1. However, these States no longer regularly use the
       Network and related data flow(s) to provide data to EPA.

       Low Exchange Network Participation: States that use the Network to share data
       with EPA using one or more of the available Network data flows; however, these
       States have not implemented, and are not in the process of implementing, any of the
       data flows from Table A-1 .

       No Exchange Network Participation: States that received funds from the Exchange
       Network Grant Program but have not yet implemented a Network node.

We selected three States from each of the above four categories. Using this initial sample of
12 States, we selected 6 States for site visits. These six States included at least one member
from each of the four categories. Table A-2 identifies the six State environmental agencies
we visited.
Table A-2: State Environmental Agencies Selected
        State                                 Agency
Kentucky               Department for Environmental Protection
New Jersey             Department of Environmental Protection
New Mexico             Environment Department
North Carolina         Department of Environment and Natural Resources
South Carolina         Department of Health and Environmental Control
Tennessee              Department of Environment and Conservation

Source: EPA OIG




                                               18

Exchange Network Internal and External Barriers

To identify internal (EPA) barriers to Exchange Network participation, we focused on
determining why two of the data flows in our sample (AFS and PCS) were unavailable for
partner implementation. We did this by interviewing EPA Office of Environmental
Information and program office staff to determine: (1) current status and time frame for
implementing these two data flows, and (2) additional steps EPA could take (if practical) to
accelerate implementation of these data flows.

To identify external (partner) barriers, we focused on determining conditions preventing
States from implementing a Network node as well as conditions preventing States with active
Network nodes from implementing the three operational data flows (AQS, RCRAInfo, and
SDWIS) in our sample. We determined conditions preventing States from implementing a
Network node by interviewing EPA Office of Environmental Information and State
personnel and identifying factors preventing the State from implementing a Network node.
Based on these interviews, we determined additional steps EPA could take to assist the State
in implementing a Network node. We determined conditions preventing States with active
nodes from participating in the AQS, RCRAInfo, and SDWIS data flows by interviewing
EPA Office of Environmental Information, applicable EPA program office, and State
personnel. Based on these interviews, we determined additional steps EPA could take to
help States implement the AQS, RCRAInfo, and SDWIS data flows.

Performance Measures

To evaluate performance measures, we first reviewed relevant EPA and Federal criteria to
determine what guidelines exist related to measuring performance of IT systems. We then
reviewed EPA’s strategic plan to determine the Agency’s goals for the Exchange Network.
Next, we interviewed representatives and officials from the EPA Office of Environmental
Information to determine work performed related to Exchange Network performance
measures and how this work aligned with EPA’s goals for the Network. We reviewed
documents related to the Exchange Network performance measures project to determine
validity and completeness.

Exchange Network Process Improvements

To evaluate how EPA could improve key Exchange Network processes, we reviewed three
areas:

�	 Cost Benefit Analysis (to select and prioritize the implementation of Exchange
   Network projects) - We reviewed documents from the selected program offices for each
   respective system to determine whether:
   o	 a cost benefit analysis was developed for each system modernization as required by
       EPA's Capital Planning and Investment Control procedures, and
   o	 the cost benefit analysis contained an analysis of Exchange Network technology
       implementation (a key functional capability used to gain access or interface with the
       system).


                                             19

�	 Post-Implementation Reviews - We reviewed documents from the selected program
   offices for each respective system to determine whether:
   o	 a Post-Implementation Review was developed for each system modernization as
       required by Office of Management and Budget (OMB) Circular A-130, Management
       of Federal Information Resources, and
   o	 the Post-Implementation Review contained an analysis of Exchange Network 

       technology implementation. 


�	 Policies and procedures to ensure program offices design their applicable systems to
   utilize the Exchange Network when developing new systems or when upgrading
   existing ones - We interviewed EPA representatives and reviewed documents to
   determine whether EPA had:
   o	 included the Exchange Network in the Agency’s Enterprise Architecture, and
   o	 developed policies or procedures for the above objective.

We interviewed program office representatives to gain an understanding of the development
methodology of the cost benefit analysis documents. We interviewed Agency
representatives and reviewed the Agency’s current Enterprise Architecture to determine
whether the Network is a part of the Enterprise Architecture. We interviewed Agency
representatives to determine if policies or procedures exist to ensure program offices design
their applicable systems to utilize the Network (when applicable) when developing new
systems, or when upgrading existing ones.

EPA Assistance to Exchange Network Governance Bodies

We evaluated steps EPA could take to assist Exchange Network governance bodies (ENLC
and NOB) related to (1) goal setting, (2) collaboration on Network projects, (3) solicitation
of stakeholder input, (4) stakeholder participation, and (5) stakeholder representation.
Specifically, we:

�	 Reviewed ENLC and NOB charters to determine governance body objectives and
   purpose,
�	 Issued questionnaires to ENLC and NOB and analyzed written responses related to the
   five items listed above, and
�	 Interviewed two members of each governance body to solicit input related to the five
   items listed above.




                                              20

                                                                                Appendix B

                      Federal and Agency Criteria 

The Government Performance and Results Act of 1993 requires agencies to develop long-
term strategic plans defining general goals and objectives for their programs, annual
performance plans specifying measurable performance goals for all of the program activities
in their budgets, and annual performance reports showing actual results compared to each
annual performance goal.

Section 5123 of the Information Technology Management Reform Act, commonly
known as the Clinger-Cohen Act of 1996, requires the head of an executive agency to
ensure that performance measurements are prescribed for information technology used by, or
to be acquired for, the executive agency. These performance measurements measure how
well the information technology supports programs of the executive agency.

OMB Circular A-130, Management of Federal Information Resources, states as part of
the evaluation component of the capital planning process that the Agency must conduct post-
implementation reviews of information systems and information resource management
processes. The post-implementation reviews validate estimated benefits and costs, and
document effective management practices for broader use. The Agency must evaluate
systems to ensure positive return on investment and decide whether continuation,
modification, or termination of the systems is necessary to meet agency mission
requirements.

EPA Enterprise Architecture Policy, Chief Information Officer Policy Transmittal 06­
001, requires all EPA information management and technology development, modernization,
enhancement, and acquisitions conform to the Enterprise Architecture and comply with
applicable Enterprise Architecture requirements of the Capital Planning and Investment
Control and Agency budget process, as published in periodic procedures, technical standards,
and guidelines. All information management and technology development, modernization,
enhancement, and acquisitions shall develop a Solution Architecture documenting the
alignment of the proposed project with the Enterprise Architecture. Solution Architectures
shall be certified as architecturally compliant prior to project development unless the
appropriate waiver is obtained.

EPA's Capital Planning and Investment Control procedures for OMB Exhibit 300
submissions require that an Alternatives Analysis with costs and benefits be completed. The
document states that EPA follows OMB’s guidelines and requires at least three alternatives
for business case analysis, with one alternative being “as is,” to continue with no change.
Each viable technical approach should be included as an alternative. For the “as is”
alternative, requirements will default to the current state, which will function as a baseline
for the other alternatives.

The 2005 Exchange Network Business Plan, endorsed by senior Agency officials, stresses
the importance of developing a Network marketing plan that includes ways in which the
Network adds value and that links sought-after partner activities with Network vision, goals,

                                             21

and objectives. The Network Business Plan also states the importance of implementing a
“change management” process for communicating and controlling Network changes. This
process helps partners initiate, sustain, and expand their use of the Network.

The Network Business Plan also contains specific criteria for determining which data flows
are most suitable for using the Network. These criteria include determining whether the
Network will provide specific benefits by:

�	 Making the exchange more efficient by reducing or eliminating manual intervention,
   such as scheduling, resubmissions, or security; and
�	 Providing higher data quality due to additional or more efficient error checking and/or
   earlier detection of errors/discrepancies.

The criteria also state that certain data flows are more appropriate for the Network than
others. Important considerations include the extent to which data flows are likely to capture
the Network effect by engaging multiple partners, as well as the volatility of data and
frequency of exchange.

The Network Business Plan contains, for planning purposes, a detailed description of a “full
deployment” Network scenario. This scenario estimates full deployment by the year 2010
and that some of the major attributes of a fully deployed Exchange Network include:

�	 Fifty fully functional nodes servicing 15 major flows and their associated
   publishing/services,
�	 Use of the Network by nearly all States, as many tribes as possible, and several additional
   Federal partners,
�	 Substantial coverage (but not necessarily full implementation) of all major regulatory
   program areas, and
�	 Sufficient deployment to have begun reaping economies of scale for all Network
   component areas.




                                              22

                                                                                  Appendix C

                 Agency Response to Draft Report 



                                         June 27, 2007

MEMORANDUM

SUBJECT: 	 Office of Environmental Information Response to Draft Audit Report ­
           Assignment No. 2006-000212

FROM:	         Linda A. Travers /s/
               Deputy Assistant Administrator

TO:	           Rudolph M. Brevard
               Director, Information Resources Management Assessments
               Office of Inspector General

        The purpose of this memorandum is to respond to your draft report of May 22, 2007,
on the audit related to the National Environmental Information Exchange Network
(Network). The Office of Environmental Information (OEI) concurs with all of your
findings and recommendations with one exception. In many cases, we have already taken
steps to implement the activities covered by your recommendations. I also want to note that
the number of states and tribes using the Network, as well as the number of states using
various data flows, has grown since your review. The attached appendix describes OEI’s
response in detail according to the terms of your cover memorandum transmitting the draft
report.

        As you are aware, the Network is a partnership of equals with EPA, states and tribes
working together to formulate strategy, establish sound governance, and ensure smooth
operations. This may make the Network unique for your review in that the Agency does not
manage it alone. Therefore, while we are recognized for breaking new technical ground in
its development, we believe we are also breaking new ground in establishing a robust,
collaborative governance structure to achieve shared Network goals with our partners. As
your office moves forward with the final draft of the report, I believe it is important to infuse
the findings and recommendations with an understanding of this unique and collaborative
management approach.

       Finally, I believe this report will help us improve the Network. I look forward to
sharing it with my colleagues in the EPA program offices, which I believe can help us
achieve the goal of improving and expanding Network use by state and EPA environmental




                                               23

programs alike. Thank you for your team’s dedicated efforts and attention. If you have any
questions regarding this response, please contact me at 202-564-6665 or Mark Luttner at
566-1630.

Attachment

cc: 	   Mark Luttner, OIC
        Myra Galbreath, OTOP
        Andrew Battin, OIC
        Doreen Sterling, OIC
        Bob Trent, OPRO




                                            24

APPENDIX


          OEI DETAILED RESPONSE TO OIG DRAFT AUDIT REPORT:
      IMPROVED MANAGEMENT PRACTICES NEEDED TO INCREASE USE OF THE 

                          EXCHANGE NETWORK 



Recommendation 2-1 The Director of the Office of Information Collection (OIC) execute
recently developed Exchange Network Communications and Marketing plan elements that
includes actively promoting the business value of participating in Network initiatives to EPA and
partner environmental program managers.

OEI Response: CONCUR
The Director of OIC shall ensure recommendations are provided to the ENLC in the form of an
Exchange Network Communications and Marketing plan that includes actively promoting the
business value of participating in Network initiatives to EPA and partner environmental program
managers.


Recommendation 2-2 The Director of OIC modify Exchange Network change management
policies and procedures to include step-by-step processes for fully testing and certifying all
implementation tools before release to the Exchange Network community

OEI Response: CONCUR
The Network Technical Group (NTG), an organization of state and EPA representatives and a
subgroup of the Network Operations Board (NOB) performs this function now. It will take
additional steps to develop and publish these procedures to the Network Web site,
www.exchangenetwork.net.


Recommendation 3-1 The OEI Principal Deputy Assistant Administrator work with Exchange
Network governance bodies to develop and implement a process that uses Network Business
Plan criteria to evaluate data flows for future Network Implementation

OEI Response: CONCUR
This will be developed jointly with the Exchange Network’s governance bodies. These priorities
are also listed in Appendix B of the annual Exchange Network Grant Program Solicitation
Notice Appendix B.




                                                25

Recommendation 4-1 The Director of OIC develop a new milestone plan for completing the EN
performance measures project.

OEI Response: CONCUR
This has been completed. The EN performance measures project is underway and now on
schedule. The draft EN measures baseline report will be ready in late July. As the Network
Partnership and Resources Group (NPRG) assumes control of the project, adjustments to the
overall project schedule will likely occur but mostly at the work assignment (contractor project
milestone) level.


Recommendation 4-2 The Deputy Assistant Administrator (DAA) of OEI work with EN
governance bodies to update the charter of the NPRG to include responsibilities for overseeing
the EN performance measures workgroup.

OEI Response: CONCUR
We believe this is already articulated clearly on Page 3 of the NPRG/NTG charter where
performance measures are specifically mentioned.


Recommendation 4-3 OEI DAA work with the EN governance bodies to develop and publish a
charter for the EN performance measures workgroup and define roles and responsibilities for
workgroup members.

OEI Response: MOOT
The NPRG already has already assumed responsibility for performance measures and its charter
encompasses this work. The prior workgroup charged with this responsibility has been
disbanded.


Recommendation 4-4 OEI DAA work with the Exchange Network governance bodies to develop
procedures for establishing ad-hoc workgroups for EN projects.

OEI Response: CONCUR

This will be implemented with any new work group. 



Recommendation 5-1 Director, Office of Technology, Operations and Planning (OTOP) include
steps to analyze Exchange network technologies as part of the cost benefit analysis process in
the Capital Planning and Investment Control (CPIC) procedures

OEI Response: NON-CONCUR
The cost benefit analysis process in the Agency’s CPIC procedures is intended to be a high level
"how-to" set of guidelines. It is not scoped at the level of detail needed to include such an
analysis as the recommendation suggests. The CPIC major IT investment review process covers
fewer than two dozen systems, and not all of the CPIC major investments are candidates for



                                                26

using the network (e.g., Technology Infrastructure Modernization). Thus, this is better left as a
case-by-case architectural implementation decision for each solution. This decision must
balance the Agency's needed solution architecture tools and methods with program needs and
budget constraints.


Recommendation 5-2 Director, OTOP, should include the EN and related technologies in the
Agency’s enterprise architecture

OEI Response: CONCUR
EPA's information exchange technologies associated with the Exchange Network and related
technologies are part of the Agency's Enterprise Architecture, In addition, EPA's architectural
development process, as part of the new System Life Cycle Management procedures, specifies
that a solution architecture be documented early on in the life cycle development process of an
IT project. This provides ample opportunity to identify which IT projects needing information
collection functions are appropriately planning to use the technologies associated with the
Exchange Network. Rules for use of the Exchange Network are part of a broader set of rules that
OEI must issue (after Agency review) to govern/guide the use of enterprise tools. These rules
(solutions architecture standards/guidance) have recently been under discussion within OEI, and
a management team has been formed to start the development process.


Recommendation 5-3 Director, OIC, should develop a policy and procedure to guide program
offices to use EN technologies, when applicable, when developing new systems or modifying
existing systems

OEI Response: CONCUR
The Director of OIC will ensure development of CDX procedures focused on EPA Program
Office technology integration with the EN when developing new systems or modifying existing
systems where applicable by Q4 2008. In addition, the ENLC (Exchange Network Leadership
Council comprised of State and EPA executives) shall develop an EN Interoperability Policy
focused on state and EPA integration with the EN where applicable by Q4 2008.




                                                27

                                                                               Appendix D 


                                    Distribution

Office of the Administrator
Office of General Counsel
Assistant Administrator for Environmental Information and Chief Information Officer
Deputy Assistant Administrator for Environmental Information
Director, Office of Technology Operations and Planning, Office of Environmental Information
Director, Office of Information Collection, Office of Environmental Information
Deputy Director, Office of Information Collection, Office of Environmental Information
Audit Coordinator, Office of Environmental Information
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                             28

